Audit Report



Return to the USDOJ/OIG Home Page




No Suspect Casework 
DNA Backlog Reduction Program 
Grant Awarded to the New York State 
Division of Criminal Justice Services 
Albany, New York

Report No. GR-70-04-008


September  2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the No Suspect Casework DNA Backlog Reduction grant awarded to the New York State Division of Criminal Justice Services (DCJS) by the U.S. Department of Justice, Office of Justice Programs (OJP), National Institute of Justice (NIJ). 

The purpose of this grant is to reduce the number of untested no suspect cases and effectively use the Combined DNA Index System (CODIS) to solve no suspect crimes having DNA evidence.  The DCJS was awarded $5,039,535 to examine 3,146 no suspect cases, upload the resulting profiles to CODIS, and compare the profiles to the CODIS convicted offender database.

We found that the DCJS complied with most grant requirements.  We reviewed the DCJS's compliance with six essential grant conditions and we found weaknesses in financial status reporting and budget management, which are two of the five areas we tested.1

Financial status reports did not always reflect the actual expenditures and unliquidated obligations incurred during the reporting period.

	We could not determine from the budget information provided to us if the DCJS accurately budgeted for all grant funds. 

These items are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope and methodology appear in Appendix I.

We discussed the results of our audit with DCJS officials and have included their comments in the report as applicable.  In addition we requested a response to our draft audit report from the DCJS.




Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar related.